WAIVE

upreme Court, U.S.
FILED

SEP 2 4 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

21-352

Jason Gonzales

Michael J. Madigan, et al.
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:

0

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Grasiela Rodriguez

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:
(Type or print) Name Scott B. Erdman
0 Mr.

Ms.

0 Mrs.

Firm

1The Law Offices of Scott B. Erdman, P.C.

Address

8 S. Michigan Avenue, Ste 811

City & State

Chicago, Illinois

Phone

773-220-9961

0 Miss

Zip 60603
Email ScottErdman@ErdmanLawOffices.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate b
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter IS
Anthony Peraica - tony@peraica.com

EIVED
OCT

3

2021

cc:

2EPRE.miFC.MRCT.III7s

1

